George F. Grob

Deputy Inspector General

  for Evaluation and Inspections

Skilled Nursing Facility Therapy Services Under Part B of Medicare (OEI-09-99-00490)

Kathleen A. Buto, Deputy Director
Center for Health Plans and Providers
Health Care Financing Administration


Based on our recent discussions and requests from your staff, we have completed some data
runs and analysis relevant to the Part B therapy caps that were mandated by the Balanced
Budget Act of 1997.

We downloaded all of the Calendar Year 1998 Medicare skilled nursing facility (SNF) claims
data for Part B bills for therapy rendered to nursing home residents. Although this is the year
prior to the implementation of the therapy caps, we thought it would be valuable to see how
the caps would have affected SNF patients had they been in effect during 1998.

During 1998, Medicare was billed $1.92 billion in Part B therapy charges by SNFs who
provided therapy with their own staff or under arrangement with therapy providers for 629,155
SNF patients -- $870 million for physical therapy; $658 million for occupational therapy; and
$393 million for speech therapy.

In order to determine the effect of the various caps, we assumed an average cost-to-charge
reimbursement ratio of .6. We based this assumption on cost-to-charge ratios that we had
collected for 22 of the SNFs that were in the national sample for our recently-completed
therapy inspection.

RESULTS

Current Therapy Caps. Based on our average cost-to-charge ratio assumption, we have
prepared attached tables and charts (Chart 1 through Chart 4) which show that between 70.9
and 77.6 percent of all beneficiaries in each category would not have exceeded any of the
therapy caps and between 22.4 and 29.1 percent would have exceeded the caps had they been
in place in 1998. These percentages do not include any adjustment for improper billings.

Other Possible Caps. We have heard from several sources of interest in combining the
current caps for physical/speech therapy and occupational therapy into a single cap. In order
to see how a single cap would affect SNF patients, we prepared the attached charts and tables
Page 2 - Kathleen A. Buto

(Chart 5 and Chart 6) which show that approximately 35 percent of SNF Part B patients would
exceed the current $1500 cap if it applied to all therapy services. If the combined cap were
$3,000 then 17.1 percent would exceed it. The attached tables and graphs make it possible to
quickly compute how many SNF patients would exceed caps established at other levels.

SNF Types. We analyzed the data to determine if the type of SNF affected the percentage of
patients who would exceed the cap. We found that patients in proprietary, free-standing, or
chain-owned SNFs would be more likely to exceed the cap than patients in nonprofit,
independently-owned, or hospital-based SNFs (Chart 7).

By Diagnosis. Concern has been expressed that SNF patients who are hospitalized for strokes
or hip fractures may require significantly more therapy than others. Therefore, we examined
patients with these two diagnoses and found that approximately one-third of them would have
exceeded the current cap. This is several percentage points more than the universe of patients
when all diagnoses are considered together (Chart 8).

ASSUMPTIONS AND LIMITATIONS

As we have noted, our results are based on modeling of 1998 data, the year prior to
implementation of the caps. In order to perform the modeling we had to make several other
assumptions. A key assumption, mentioned above, was our need to calculate an average cost-
to-charge ratio based on information that was readily available. We are in the process of
ascertaining specific cost-to-charge ratios for each SNF that billed for Part B therapy in 1998,
and will further refine our data based on the specific per facility ratios.

Furthermore, our analysis is based on charges per facility and does not reflect the possibility
that a patient may have, in rare instances, resided in different SNFs during 1998. Our results
roughly approximate a cost per individual, per episode or per year.

Another significant assumption is that all the services that were charged were medically
necessary. In a recently completed inspection, we found that 13 percent of physical and
occupational therapy in SNFs was improperly billed because the services were not medically
necessary and/or therapy was provided by staff who did not have the appropriate skill for the
patient’s medical condition.

Our data does not include any therapy that was provided by therapy providers under agreement
with a SNF and billed directly to a fiscal intermediary. We do not know the extent of these
claims, but assume that they are a relatively rare occurrence since we did not find any in our
recent field work. Also, our data does not include any services to SNF patients by therapists in
independent practice who would bill the Medicare carrier and would have been subjected to a
$900 limit which was in effect for their services in 1998.
Page 3 - Kathleen A. Buto

ADDITIONAL WORK

We believe that there is a lot more information that can be gleaned from a careful analysis of
the 1998 claims data, and we are continuing our analysis. For example, we are planning to
analyze the data to determine, among other things, how various diagnoses affect the cap, how
the cap affects individual SNFs, the effect of geographic location, demographic characteristics
of patients who exceed the cap, and how the first quarter of 1999 compares with the first
quarter of 1998.

We are also beginning a study to determine the impact of the cap on access to medically
necessary physical, occupational, and speech therapy provided to Medicare Part B patients in
SNFs. This study will focus on SNF patients who received therapy from January 1, 1999
through September 30, 1999. We anticipate the study will be completed during the Spring of
2000.

As we complete any additional analysis, we will discuss our assumptions and data analysis
options with you and other Departmental staff as well as other interested parties. We hope we
can provide you with the most meaningful and thorough independent data analysis possible.

We hope that you find the attached data helpful. Please call me at (202) 619-0480, if you have
any questions or comments.

Attachments
                             CHART 1

     ESTIMATED* PHYSICAL THERAPY REIMBURSEMENT PER SNF STAY


 Physical therapy reimbursement                 Number of stays                 Percent of stays
 Less than $1,500                                      309,509                           73.9%
 $1,500 to $1,799                                       23,028                            5.5%
 $1,800 to $2,099                                       17,653                            4.2%
 $2,100 to $2,399                                       13,350                            3.2%
 $2,400 to $2,699                                       10,156                            2.4%
 $2,700 to $2,999                                        7,859                            1.9%
 $3,000 to $3,299                                        6,292                            1.5%
 $3,300 to $3,599                                        4,899                            1.2%
 $3,600 to $3,899                                        3,937                            0.9%
 $3,900 to $4,199                                        3,199                            0.8%
 $4,200 to $4,499                                        2,670                            0.6%
 $4,500 to $4,799                                        2,122                            0.5%
 $4,800 to $5,099                                        1,843                            0.4%
 $5,100 to $5,399                                        1,574                            0.4%
 $5,400 to $5,699                                        1,299                            0.3%
 $5,700 to $5,999                                        1,084                            0.3%
 $6,000 or more                                          8,336                            2.0%
 TOTAL                                                 418,810                          100.0%


                                                                                     Percent of stays




                                  PT reimbursement category ($300 increments)

*Based on a cost-to-charge ratio of .6
                          CHART 2

 ESTIMATED* OCCUPATIONAL THERAPY REIMBURSEMENT PER SNF STAY


 Occupational therapy reimbursement           Number of stays                 Percent of stays
 Less than $1,500                                    224,198                           72.3%
 $1,500 to $1,799                                     17,571                            5.7%
 $1,800 to $2,099                                     13,677                            4.4%
 $2,100 to $2,399                                     10,526                            3.4%
 $2,400 to $2,699                                      8,218                            2.6%
 $2,700 to $2,999                                      6,549                            2.1%
 $3,000 to $3,299                                      5,099                            1.6%
 $3,300 to $3,599                                      4,054                            1.3%
 $3,600 to $3,899                                      3,393                            1.1%
 $3,900 to $4,199                                      2,632                            0.8%
 $4,200 to $4,499                                      2,201                            0.7%
 $4,500 to $4,799                                      1,823                            0.6%
 $4,800 to $5,099                                      1,490                            0.5%
 $5,100 to $5,399                                      1,298                            0.4%
 $5,400 to $5,699                                      1,085                            0.3%
 $5,700 to $5,999                                        886                            0.3%
 $6,000 or more                                        5,566                            1.8%
 TOTAL                                               310,266                          100.0%


                                                                                     Percent of stays




                                OT reimbursement category ($300 increments)

*Based on a cost-to-charge ratio of .6
                             CHART 3

       ESTIMATED* SPEECH THERAPY REIMBURSEMENT PER SNF STAY


 Speech therapy reimbursement                 Number of stays                 Percent of stays
 Less than $1,500                                    170,497                           77.6%
 $1,500 to $1,799                                     10,771                            4.9%
 $1,800 to $2,099                                      8,178                            3.7%
 $2,100 to $2,399                                      6,155                            2.8%
 $2,400 to $2,699                                      4,848                            2.2%
 $2,700 to $2,999                                      3,583                            1.6%
 $3,000 to $3,299                                      2,819                            1.3%
 $3,300 to $3,599                                      2,230                            1.0%
 $3,600 to $3,899                                      1,805                            0.8%
 $3,900 to $4,199                                      1,463                            0.7%
 $4,200 to $4,499                                      1,141                            0.5%
 $4,500 to $4,799                                        982                            0.4%
 $4,800 to $5,099                                        766                            0.3%
 $5,100 to $5,399                                        609                            0.3%
 $5,400 to $5,699                                        558                            0.3%
 $5,700 to $5,999                                        476                            0.2%
 $6,000 or more                                        2,933                            1.3%
 TOTAL                                               219,814                          100.0%


                                                                                      Percent of stays




                                ST reimbursement category ($300 increments)

*Based on a cost-to-charge ratio of .6
                                CHART 4

            ESTIMATED* COMBINED PHYSICAL AND SPEECH THERAPY

                      REIMBURSEMENT PER SNF STAY


 Physical + speech therapy                    Number of stays                    Percent of stays
 reimbursement
 Less than $1,500                                    386,885                              70.9%
 $1,500 to $1,799                                     29,325                               5.4%
 $1,800 to $2,099                                     23,258                               4.3%
 $2,100 to $2,399                                     18,023                               3.3%
 $2,400 to $2,699                                     14,131                               2.6%
 $2,700 to $2,999                                     11,354                               2.1%
 $3,000 to $3,299                                      9,298                               1.7%
 $3,300 to $3,599                                      7,474                               1.4%
 $3,600 to $3,899                                      6,203                               1.1%
 $3,900 to $4,199                                      5,197                               1.0%
 $4,200 to $4,499                                      4,445                               0.8%
 $4,500 to $4,799                                      3,674                               0.7%
 $4,800 to $5,099                                      3,174                               0.6%
 $5,100 to $5,399                                      2,686                               0.5%
 $5,400 to $5,699                                      2,363                               0.4%
 $5,700 to $5,999                                      1,999                               0.4%
 $6,000 or more                                       15,908                               2.9%
 TOTAL                                               545,397                             100.0%

                                                                                        Percent of stays




                         Combined PT + ST reimbursement category ($300 increments)

*Based on a cost-to-charge ratio of .6
                            CHART 5

     ESTIMATED* COMBINED PHYSICAL AND OCCUPATIONAL THERAPY

                  REIMBURSEMENT PER SNF STAY


 Physical + occupational therapy              Number of stays                    Percent of stays
 reimbursement
 Less than $1,500                                    359,122                              65.7%
 $1,500 to $1,799                                     29,874                               5.5%
 $1,800 to $2,099                                     24,111                               4.4%
 $2,100 to $2,399                                     19,464                               3.6%
 $2,400 to $2,699                                     15,970                               2.9%
 $2,700 to $2,999                                     13,057                               2.4%
 $3,000 to $3,299                                     11,082                               2.0%
 $3,300 to $3,599                                      9,190                               1.7%
 $3,600 to $3,899                                      7,977                               1.5%
 $3,900 to $4,199                                      6,642                               1.2%
 $4,200 to $4,499                                      5,695                               1.0%
 $4,500 to $4,799                                      4,937                               0.9%
 $4,800 to $5,099                                      4,366                               0.8%
 $5,100 to $5,399                                      3,745                               0.7%
 $5,400 to $5,699                                      3,335                               0.6%
 $5,700 to $5,999                                      2,945                               0.5%
 $6,000 or more                                       25,323                               4.6%
 TOTAL                                               546,835                             100.0%

                                                                                       Percent of stays




                         Combined PT + OT reimbursement category ($300 increments)

*Based on a cost-to-charge ratio of .6
                             CHART 6

      ESTIMATED* COMBINED PHYSICAL, OCCUPATIONAL, AND SPEECH

               THERAPY REIMBURSEMENT PER SNF STAY


 Physical + occupational + speech           Number of stays                    Percent of stays
 therapy reimbursement
 Less than $1,500                                  412,756                              64.3%
 $1,500 to $1,799                                   34,200                               5.3%
 $1,800 to $2,099                                   27,962                               4.4%
 $2,100 to $2,399                                   22,786                               3.6%
 $2,400 to $2,699                                   18,807                               2.9%
 $2,700 to $2,999                                   15,468                               2.4%
 $3,000 to $3,299                                   13,134                               2.0%
 $3,300 to $3,599                                   11,098                               1.7%
 $3,600 to $3,899                                    9,662                               1.5%
 $3,900 to $4,199                                    8,157                               1.3%
 $4,200 to $4,499                                    7,212                               1.1%
 $4,500 to $4,799                                    6,067                               0.9%
 $4,800 to $5,099                                    5,463                               0.9%
 $5,100 to $5,399                                    4,829                               0.8%
 $5,400 to $5,699                                    4,279                               0.7%
 $5,700 to $5,999                                    3,849                               0.6%
 $6,000 or more                                     36,128                               5.6%
 TOTAL                                             641,857                             100.0%

                                                                                Percent of stays




                     Combined PT + OT + ST reimbursement category ($300 increments)

*Based on a cost-to-charge ratio of .6
                                   CHART 7

                 EFFECT OF THERAPY CAP BY FACILITY CATEGORIES


                                      For each category, percent of stays in which
                                 estimated part B therapy reimbursement reached $1,500
                          SNF status              SNF type of ownership           SNF affiliation
    Type of
    therapy                                       Part of
                      For-          Not-for-      multi-       Independently     Free-    Hospital-
                      profit         profit       facility        owned        standing    based
                                                   chain
    Physical          28.9%          19.5%        29.1%              21.4%      26.3%          15.6%
    Occupational      30.5%          20.8%        30.4%              23.4%      28.1%          10.4%
    Speech            24.5%          16.8%        24.8%              18.5%      22.7%          9.2%
    Physical +
                      32.0%          22.0%        32.3%              24.0%      29.4%          16.0%
    speech




                               CHART 8

    EFFECT OF THERAPY CAP FOR STROKE AND HIP FRACTURE DIAGNOSES 1


                                For beneficiaries with selected diagnosis, percent of stays in
      Type of therapy          which estimated part B therapy reimbursement reached $1,500
                                    Stroke              Hip fracture           All diagnoses
           Physical                 32.4%                    32.3%                26.1%
       Occupational                 32.8%                    29.8%                27.7%
           Speech                   29.5%                    21.8%                22.4%
     Physical + speech              38.2%                    34.6%                29.1%




       1
       For the “stroke” category, we included all beneficiaries whose SNF claim included an

ICD-9 diagnosis code beginning with 430, 431, 432, 433, 434, or 438. For “hip fracture,” we

used ICD-9 diagnoses beginning with 820.

